      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




September 9, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Lori S. Pilcher/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Payments Exceeding Charges for Outpatient Services
               Processed by Noridian Administrative Services, LLC, in Jurisdiction 6 –
               Minnesota for the Period January 1, 2006, Through June 30, 2009
               (A-05-10-00020)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Noridian Administrative Services, LLC
(Noridian), in Jurisdiction 6 – Minnesota. We will issue this report to Noridian within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Sheri L. Fulcher, Acting Regional Inspector General for Audit Services, Region V, at
(312) 353-7905 or through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number
A-05-10-00020.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601
September 14, 2011

Report Number: A-05-10-00020

Mr. Michael Hamerlik
President and Chief Executive Officer
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Mr. Hamerlik:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by Noridian Administrative Services, LLC, in Jurisdiction 6 –
Minnesota for the Period January 1, 2006, Through June 30, 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(312) 353-1823 or through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number
A-05-10-00020 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hamerlik


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF MEDICARE PAYMENTS
    EXCEEDING CHARGES FOR
     OUTPATIENT SERVICES
    PROCESSED BY NORIDIAN
ADMINISTRATIVE SERVICES, LLC,
IN JURISDICTION 6 — MINNESOTA
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-05-10-00020
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Noridian Administrative Services, LLC (Noridian), has been the fiscal intermediary for the State
of Minnesota since August 1999. On January 7, 2009, CMS awarded the Medicare
Administrative Contractor contract for Jurisdiction 6, which includes Minnesota; however,
protests were filed against the award. CMS is taking corrective action on the award. In the
meantime, Noridian, acting as the legacy fiscal intermediary, continues to process claims for
providers in Minnesota. During our audit period (January 2006 through June 2009),
approximately 46.9 million line items for outpatient services were processed for Minnesota, of
which 520 line items had (1) a Medicare line payment amount that exceeded the line billed
charge amount by at least $1,000 and (2) 3 or more units of service. (A single Medicare claim
from a provider typically includes more than one line item. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims that met these two
criteria. Because the terms “payments” and “charges” are generally applied to claims, we will
use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.




                                                i
SUMMARY OF FINDINGS

Of the 520 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 59 were correct. Providers refunded overpayments
on 94 line items totaling $2,550,380 before our fieldwork. The 367 remaining line items were
incorrect. Of these 367 line items, 363 included overpayments totaling $3,566,189, which the
providers had not refunded by the beginning of our audit. As of July 25, 2011, the amount of
overpayment for the four remaining incorrect line items had not been determined because the
line items had not been reprocessed and the correct line payment amounts identified.

Of the 367 incorrect line items:

   •    Providers reported incorrect units of service on 229 line items, resulting in identified
        overpayments totaling at least $2,619,756 (the amount of overpayment for 4 of the 229
        line items has not been determined).

   •    Providers billed for unallowable services on 111 line items, resulting in identified
        overpayments totaling $527,414.

   •    Providers did not provide the supporting documentation for six line items, resulting in
        identified overpayments totaling $307,757.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 13 line
        items, resulting in overpayments totaling $91,778.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on eight line items, resulting in overpayments totaling $19,484.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Noridian:

    •   recover $3,566,189 in identified overpayments,

    •   determine the amount of overpayment for the four incorrect line item payments and
        recover that amount,




                                                 ii
    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it has taken or plans to take. In our draft report, we
recommended that Noridian determine and recover the overpayments associated with 26
incorrect line items that we identified. In its comments, Noridian stated that it had collected
overpayments totaling $75,119 associated with 18 of those line items. After submitting its
written comments, Noridian provided additional information that showed it had collected an
additional $58,924 associated with four of the eight remaining line items. Accordingly, we have
revised our findings and our first two recommendations to reflect the additional claim lines
adjusted and amounts recovered.

Noridian’s comments are included in their entirety as the Appendix.




                                                  iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Noridian Administrative Services, LLC ......................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Services Not Allowable for Medicare Reimbursement ................................................. 5
        Unsupported Services ..................................................................................................... 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes .............................. 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS AND
        OFFICE OF INSPECTOR GENERAL RESPONSE …………………….. .................. 7

APPENDIX

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Noridian Administrative Services, LLC

Noridian Administrative Services, LLC (Noridian), has been the fiscal intermediary for the State
of Minnesota since August 1999. On January 7, 2009, CMS awarded the Medicare
Administrative Contractor contract for Jurisdiction 6, which includes Minnesota; however,
protests were filed against the award. CMS is taking corrective action on the award. In the
meantime, Noridian, acting as the legacy fiscal intermediary, continues to process claims for
providers in Minnesota. During our audit period (January 2006 through June 2009),
approximately 46.9 million line items for outpatient services were processed for Minnesota
providers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.

Scope

Of the approximately 46.9 million line items for outpatient services that Noridian processed
during the period January 2006 through June 2009, we reviewed 520 line items that had (1) a
Medicare line payment amount that exceeded the line billed charge amount by at least $1,000
and (2) 3 or more units of service. 3

We limited our review of Noridian’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork included contacting Noridian, in Fargo, North Dakota, and the 42 providers 4 in
Minnesota that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

3
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review the entire claim; rather, we reviewed specific line items within the claims that met these two criteria.
Because the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts”
and “line billed charges.”
4
 One provider refunded overpayments on all three selected line items before our fieldwork; therefore, we did not
contact that provider.

                                                         2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 5

    •   identified 520 line items totaling approximately $6.6 million that Medicare paid to 42
        providers;

    •   contacted 41 providers that received Medicare payments for 426 line items 6 to determine
        whether the information conveyed in the selected line items was correct and, if not, why
        the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Noridian; and

    •   discussed the results of our review with Noridian on January 25, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of the 520 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 59 were correct. Providers refunded overpayments
on 94 line items totaling $2,550,380 before our fieldwork. The 367 remaining line items were
incorrect. Of these 367 line items, 363 included overpayments totaling $3,566,189, which the
providers had not refunded by the beginning of our audit. As of July 25, 2011, the amount of
overpayment for the four remaining incorrect line items had not been determined because the
line items had not been reprocessed and the correct line payment amounts identified.

Of the 367 incorrect line items:

    •   Providers reported incorrect units of service on 229 line items, resulting in identified
        overpayments totaling at least $2,619,756 (the amount of overpayment for 4 of the 229
        line items has not been determined).


5
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.
6
  We did not review 94 of the 520 selected line items because providers refunded overpayments before our
fieldwork.

                                                        3
    •   Providers billed for unallowable services on 111 line items, resulting in identified
        overpayments totaling $527,414.

    •   Providers did not provide the supporting documentation for six line items, resulting in
        identified overpayments totaling $307,757.

    •   Providers used HCPCS codes that did not reflect the procedures performed on 13 line
        items, resulting in overpayments totaling $91,778.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on eight line items, resulting in overpayments totaling $19,484.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.” 7
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 229 line items, resulting in overpayments totaling
at least $2,619,756. The amount of overpayment for 4 of the 229 line items has not been

7
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5 of the Manual.

                                                      4
determined because the line item has not been reprocessed and the correct line payment amount
identified. The following examples illustrate the incorrect units of service:

   •   One provider billed Medicare for incorrect service units on five line items. Rather than
       billing 1 service unit (the correct chargeable unit count for the HCPCS codes associated
       with these line items), the provider billed between 48 and 87 service units. These errors
       occurred because an electronic billing format conversion procedure was deleted when the
       provider upgraded its billing software. As a result of these errors, Noridian paid the
       provider $110,166 when it should have paid $2,736, an overpayment of $107,430.

   •   Another provider billed Medicare for incorrect service units on nine line items. Rather
       than billing 1 or 2 service units, the provider billed between 50 and 100 service units.
       These clerical errors occurred because the coder incorrectly performed the quantity
       conversion associated with the services. As a result of these errors, Noridian paid the
       provider $120,874 when it should have paid $2,450, an overpayment of $118,424.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 111 line items for which the services provided were not
allowable for Medicare reimbursement, resulting in overpayments totaling $527,414. For
example, a provider billed Medicare for 18 line items that were unrelated to outpatient services.
The provider incorrectly billed Medicare outpatient services for dental procedures that are not
covered by Medicare. For one such procedure, the provider billed for the surgical removal of an
erupted tooth, which is not a covered procedure according to the Medicare Benefit Policy
Manual (Pub. No. 100-02, chapter 15, section 150). As a result of these errors, Noridian paid the
provider $105,286 when it should have paid $0, an overpayment of $105,286.

Unsupported Services

Three providers billed Medicare for six line items for which the providers did not provide
supporting documentation, resulting in overpayments totaling $307,757. Two of the providers
agreed to cancel two line items and issue a total refund of $10,933. The remaining provider did
not respond to our requests regarding four line items totaling $296,824.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 13 line items,
resulting in overpayments totaling $91,778. For example, because of a clerical error, a provider
billed Medicare for two line items with HCPCS code J2469, an injection used to prevent nausea
and vomiting caused by chemotherapy, rather than using the correct HCPCS code J0878, an
antibiotic injection used to treat serious infection. As a result of this error, Noridian paid the
provider $15,216 when it should have paid $220, an overpayment of $14,996.




                                                 5
Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on eight line items, resulting in overpayments totaling $19,484. For example, because of a
clerical error, one provider billed Medicare for 14 units of a critical care procedure with HCPCS
code 99291 rather than 1 unit of a level 5 emergency room procedure with HCPCS code 99285.
As a result of this error, Noridian paid the provider $5,260 when it should have paid $188, an
overpayment of $5,072.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 8

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that Noridian:

     •   recover $3,566,189 in identified overpayments,

     •   determine the amount of overpayment for the four incorrect line item payments and
         recover that amount,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

     •   use the results of this audit in its provider education activities.




8
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         6
NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it has taken or plans to take. In our draft report, we
recommended that Noridian determine and recover the overpayments associated with 26
incorrect line items that we identified. In its comments, Noridian stated that it had collected
overpayments totaling $75,119 associated with 18 of those line items. After submitting its
written comments, Noridian provided additional information that showed it had collected an
additional $58,924 associated with four of the eight remaining line items. Accordingly, we have
revised our findings and our first two recommendations to reflect the additional claim lines
adjusted and amounts recovered. Noridian’s comments are included in their entirety as the
Appendix.




                                               7
APPENDIX
                                                                                                                   Page 1 of3


APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 




~
NORIDIAN®                                                                           Paul O'Donnell
                                                                                    Vice President
Administrative Services uc                                                          Medicare Operation s
                                                                                    90042"' Sl S
                                                                                    Fargo, NO 58103
                                                                                    (701) 277-2401
                                                                                    FAX (701) 277-5150
                                                                                    paul. odon nell@loridian.com




 June 27, 2011

 James C. Cox 

 Regional Inspector General for Audit Services 

 Office of Inspector General 

 Region V 

 233 North Michigan, Suite 1360 

 Chicago, IL 60601 


 RE: Report Nurnber A-OS-I0-00020

 Dear Mr. Cox:
 Thank you for the opportunity to respond to the draft report of the u.s. Department of Health & Human
 Services, Office of Inspector General (OIG) dated May 26, 2011, entitled, Review a/Medicare Payments
 Exceeding Charges for Outpatient Services Processed by NoridianAdministrative Services, LLC, in
 Jurisdiction 6 -Minnesota/or the Period ofJamtary 2006 Through June 2009. We concur with the
 recommendations made by the OIG. NAS has provided our responses to these reconunendations within the
 contents of this letter. The course of action that NAS has planned will be an ongoing effort due to the extent of
 activities planned and the time that can be associated with the research, development, testing and
 implementation of certain initiatives.

 NAS researched the claims information and details provided by the OIG and has determined there are several
 courses of action NAS will perform to assist in reducing future overpayments. A few of the CPT IHCPC codes
 identified in this audit are now included on the published Medical Unlikely Edits (MUE) listing and now have
 writ of seIVice limits. These MUE's are also edits in the standard Part A system, FISS, and should assist in
 minimizing unit of service overpayments in the future. For those codes not included in either the published or
 non-published MUE listings, NAS will explain our initiatives/plans to reduce future overpayments in the
 response below. Reviewing the list of providers included in this audit, NAS does recognize some providers are
 currently being educated for various reasons identified in their billings. The audit conducted by the OIG gives
 NAS further evidencelinformation of billing issues that will be reviewed and considered for recommendation to
 the Program Safeguard Contractor (PSC) when and if appropriate.

 It's imJXlrtant to note that future overpayments may still be possible even after NAS has completed our plans of
 action due to the fact that Medicare contractors are not fimded to perform 100% complex review of claims.
 Without a comparison of medical records and coding on 100% of claims billed, there is always going to be the
 potential for overpayments (and llllderpayments) resulting from billing incorrect procedure codes, writs of
 seIVice and other claims payment indicators. NAS will be diligent to avoid overpayments within the scope of
 our contracts, authorization and experience. An important tool or step in this process that NAS has considered
 is to make referrals to the Program Safeguard Contractor (PSC), Recover Audit Contractors (RAe) and CMS as
 a method of business collaboration.


 29309515                          A CMS Contracted Carner/Inte rmediary                                   11110
                                                                                                             Page 2 of3




OIG R ECO:'\'IMJ<;N I>ATIONS :

   •	   RCl~O\'c r the SJ,432,J46 in id entified O\'c l'pay mcn ls
                 NAS R,;:sJ)on~ e : NAS concurs with the rccomlllClldationlhat all o n:: rpn)1IlCnIS identified arc 10
                 be collected.

   •    Dc tel"lllin t'- th e a mount of onrpllJ m ent fOl"the 26 incUlTed line it e m J1a~'lIIe nts and 1't'L~)VI'l" thai
        ll m Ollnt
                 NAS Respon~e: As stated in Che draft report, there we re 26 claims remaining to be collected 011.
                 On Friday, 6/ 1711 1, NAS received Ihe di::laih:d c1a i m~ list ing/findings from the OIG and has
                 confirmed that eight of those 26 have not had adjustments subm itted by the provider. Utili zing
                 the listing provided by the O IG, NAS will contact these providers and ens ure the adjustments are
                 submitted and overpaid dollars arc rcturned to l\'kdicarc. NAS collected $75, 119.44 onlhe 18
                 adjustments completed. Upon completion ofthe e ight rema ining adj ustments, NAS will provide
                 an upda te to the D IG.

   •    lmplt men t system edits that identify line item pa;nllt.nts that excet'd billtt:1 f.harges by a pl"tsc li btt:1
        1IJlllluni
                 NAS R,::s[Jonse: NAS has cstahlished an Outpat ient Assessment Task Forcc (OATF) of scasoned
                 Medicare staff that will be reviewing the claims data from the OIG 's audit. Team ~'I embers
                 incl ude: Contractor l\'lcdieal Director (CM I)), CM I) Assistant (R N), Medi cal Review l\·!:mager
                 (RN) and/or Team Leader ( RN), Part A C l aim ~ Manag;:r and/or Team Leader and Part A
                 Systems Manager and/or Team Leader and others as needed. The OATF will pertorm the
                 following acti vities and as much as pos~i bl e uti lize the already established (and funded)
                 processes and procedures within the current NAS Medicare infrastructure:
                          On 512011 1, NAS submitted a new PAR (PAR J30(48) requestin g FISS to
                          establ i ~hlcreatc a new national ed it in FISS to address excessive lim: item paymL"1l ~
                          occurring on a national bas is. '111e PAR is curnmtly in a rr:sr:an:h stutllS as of 6/9/ 11. On
                          r...londay, 61 1311 ! , the National FIS S User Group discussed this PA R and NAS will be
                          ~ ubm itting more examples for others to research and thc FISS user group plans to fe-visit
                          this PA R on Monday, fi/2 7111. It was stalt:d that if th is PA R is acceplt:d it will need to be
                          scheduled for an upcoming FISS release and that is looking to be October 20 II or later.
                          Pending the response from FISS, if necessary, NAS will elevate th is request to our CMS
                          COTR .
                          If the PAR request is not a feasib le option NAS will evaluate ifuser contro lled edits in
                          FISS would be a viable option. NAS' preference would be to have the FISS maintainer
                          and CMS support to implement a national system edit in FISS fo r cons istency in
                          processing of all Medicare claims.
                          As a backup plan, t he Outpaticnt Asscss ment Task. Force (OATF) will be making
                          recommcndations to the Medical Review team 011aberrant codes and to evaluate if the
                          ~'Iedica l Policy Parameter screen is applicab le for use with the identified errors. As
                          applicable, NAS will also make recommcndations on the specific areas of vulnerabilities
                          from the OIG audit to the applicable RAe per in$lmctions in IDL 11148. NAS
                          anticipntes the eva111.1tiol1 process to begin in July 2011 .
                          To cstablish a priority ranking for implemcnting potential correcti ve actions, NAS will
                          utilize the specific data provided on 61l7/ l !lo r the assess ment of:
                                • o \'erpaym en ~ dollar.; per claim ( Hi ghest to lowest )
                                • uniL~ billed (1 lighest to lowest)
                                • most frequentl y billed codes (Highest to lowest)
                                • specific providers included in th is audit (Hi ghest claim volume to lowest)
                                                                                                               Page 3 of3




                          Pcrfonn a review or un i! of services allowed and dclennin c ira FiSS User PAR should be 

                          created to SLlbmil10 th~ data Cenlt: r f()T a 81andard S)'Slem edi!. If nOI p(J!;s ibli:, consider 

                          local edits as approprialc. NAS would cons ider r~lIlffi ing the claim to the provider (RTP) 

                          10 verify if th e uni l~ bill ed arc accurat e. 

                          As appropriate, Ihe Ci\oIl) w ill a.~ se ss ir a ne w Local Cove rage Determination (LC D) is 

                          warranted or changes to any existin g LCD"s are Ileeded. 

                          Assess high ove rpayment codes in the Annual i\'fcdi cal Review Strategy development 

                          proc.:ss (which wo uld r.:sult in claims to be n::viewed at the complex level by Medical 

                           Review Nurses) 

                           Refer recommendations for p()!;t-pay reviews 10 the Recovery Aud it Contractor (RAe) 

                           perlh.: new C~"S direct ion from T DL 11148dal~d 2/ 17/11. 

                           As appropriate refer recom mendations 10 the PSC. 

                           NAS" two CMIYs are members of the National MUE workgroup comminec :md as 

                           appropriate will elevate problematic codes to th e :omminee la r review and considerati on 

                           of new ~", UE edits. 



    • 	 Use Ihe resullS of tltis a ud it in its provider education acthi ti('s
               NAS Response: NAS has seve ral plans of action Ihat will include va/"iOll~ methods of provider
               educati on. "111e OATF will updat e th e I'f()vider Outn:ach and Ed ucation!t:am wilh specific
               educati on topics as th ey re late to the data assessed. NAS plans th e fo llowing provider education
                activit i L~ :
                     •	  Deve lop provider Iraining on the ' hot spots" idemified thro ugh assessments.
                     •	  Develop tools/reso urces 011 our website as a reso urce for provi ders_
                     •	  30 minute web ex p/"O vidc /" education sessions (as applicable).
                     •	  Provider educati on articles that will be distributed via the list-sel>' and posted to th e NAS
                         webs ite.
                     • 	 I'mv iders with an error rate of$5,000 and above wi ll be /"equired to subm it a corrective
                         action plan to NAS.




Please ad vise if addit ional infomlation o/" furth cr cla/"ifi cation is IIccdcd on an y of o ur /"csponsc . Please contact
Paul O'Oonn.:1l, Medicare Operations Vice Presiden t, at (70 I) 277-240 1 o/" thf()ugh email at
Pau1.0"Oonne ll@ noridian.com


Sincere ly,

l si Pall! 0 Donnell

PauIO·Donn.:11
Vice President
Noridi an Administrative Services, LLC
